No. 19-1176
IN THE

Supreme Court of the United States
————
FRESNO COUNTY SUPERINTENDENT OF SCHOOLS,
Petitioner,
v.
AILEEN RIZO,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
BRIEF OF AMICUS CURIAE
SOCIETY FOR HUMAN RESOURCE
MANAGEMENT IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI
————
CAMILLE A. OLSON
Counsel of Record
RICHARD B. LAPP
DAVID D. KADUE
SEYFARTH SHAW LLP
2029 Century Park East
Los Angeles, California 90067
(310) 277-7200
colson@seyfarth.com
Counsel for Amicus Curiae
Society for Human Resource
Management
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

ii

INTRODUCTION ................................................

1

INTEREST OF AMICUS CURIAE .....................

2

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

4

I. The Ninth Circuit’s Radical Rule
Deepens A Circuit Split and Upsets
Employer Reliance on 50 Years of EPA
Jurisprudence ...........................................

4

II. The Court Should Grant Certiorari to
Create Uniformity on an Important
National Issue ...........................................

7

A. Employers Routinely Use Prior
Salary Data for Legitimate Business
Purposes ...............................................

9

B. Stifling Use of Prior Salary Would
Hurt Women as Well as Men ..............

12

CONCLUSION ....................................................

17

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Aldrich v. Randolph Cent. Sch. Dist.,
963 F.2d 520 (2d Cir. 1992) ......................

5

Beck-Wilson v. Principi,
441 F.3d 353 (6th Cir. 2006) .....................

5

Corning Glass Works v. Brennan,
417 U.S. 188 (1974) ..................................

1

Horner v. Mary Institute,
613 F.2d 706 (8th Cir. 1980) ....................

10

Kouba v. Allstate Ins. Co.,
691 F.2d 873 (9th Cir. 1982) .....................

6, 7

Taylor v. White,
321 F.3d 710 (8th Cir. 2003) .....................

5

Wernsing v. Department of Human Services,
427 F.3d 466 (7th Cir. 2005) .....................

9

STATUTES
29 U.S.C. § 206(d)(1) ....................................

4

GUIDANCES
EEOC Notice Number 915.002 (Oct. 29,
1997) .......................................................... 5-6, 7
OTHER AUTHORITIES
Amy Gallo, Harv. Bus. Rev. Online, Setting
the Record Straight: Using an Outside
Offer to Get a Raise (July 5, 2016), https://
tinyurl.com/ jhm2eub ................................

10

iii
TABLE OF CONTENTS—Continued
Page
Jen Hubley Luckwaldt, PayScale, When
Should You Use an Outside Offer to Negotiate Salary? (July 11, 2016), https://tiny
url.com/ybsf6n 3l .......................................

10

Jeffrey A. Mello, SAGE Publications, “Why
the Equal Pay Act and Laws Which Prohibit Salary Inquiries of Job Applicants
Can Not Adequately Address GenderBased Pay Inequity” (2019), https://jour
nals.sagepub.com/doi/pdf/10.1177/21582
44019869106. ............................................

15

Yuki Noguchi, Nat. Pub. Radio, Proposals
Aim to Combat Discrimination Based on
Salary History (May 30, 2017), https://
tinyurl.com/ya6 7hrua .............................. 9-10
SHRM, Data Snapshot: How Employers
Use Prior Pay in Decision-Making, (April
20, 2020), https://www.shrm.org/Resour
cesAndTools/legal-and-compliance/empl
oyment-law/Pages/Data-Snapshot-HowEmployers-Use-Prior-Pay-in-Decision-Ma
king.aspx ...................................................

10

INTRODUCTION
The Society for Human Resource Management
(“SHRM”) respectfully submits this amicus curiae
brief in support of the petition for certiorari.1
SHRM requests that the Court resolve a longstanding, now cavernous, split among the Circuit
Courts of Appeal on whether the Equal Pay Act ever
permits employers to use prior salary2 as a “factor
other than sex” to help explain a pay difference. The
Ninth Circuit, by a 6-5 vote, reached out to reverse its
own long-standing precedent and to adopt the novel
interpretation that prior salary can never be a factor
other than sex. This unique contribution to EPA jurisprudence, coming more than 50 years after enactment,
upset settled expectations that employers could, in
appropriate circumstances, consider prior salary as a
factor in setting pay.
SHRM, in opposing this new rule, supports a rule
that would permit employers to consider prior salary
when the surrounding circumstances make it reasonable to do so, and where the employer is not simply
relying on market forces that have permitted employers to pay women less because they are women. Cf.
Corning Glass Works v. Brennan, 417 U.S. 188, 205
(1974) (wage differential “arose simply because men
1

Pursuant to Rule 37.2, amicus represents that the parties
consented in writing to the filing of this brief, and confirms that
no party to this case authored any part of this brief. No entity
other than amicus or its counsel financed this brief’s preparation
or submission.
2

While described by the Ninth Circuit and other courts as an
applicant’s prior salary, the factor considered by employers in pay
decisions typically is the applicant’s current salary at another
employer.

2
would not work at the low rates paid women inspectors, and it reflected a job market in which Corning
could pay women less than men for the same work”).3
SHRM thus joins the Petitioner in asking the Court
to grant certiorari to resolve a significant circuit split
and to create a sensible, uniform view on whether
employers, consistent with the Equal Pay Act, can ever
consider prior salary in setting pay.
INTEREST OF AMICUS CURIAE
As the world’s largest association devoted to human
resource (“HR”) management, SHRM aims to create
better workplaces where employers and employees
thrive together. SHRM serves as the foremost expert,
convener, and thought leader on issues affecting today’s
evolving workplaces. With over 300,000 Human
Resources and business executive members in 165
countries, SHRM enhances the lives of more than 115
million workers and families globally.
Because human resource professionals sit at the
intersection of work, workers, and the workplace, they
have a unique perspective on implementing pay philosophies to recruit and retain top talent in the twentyfirst century workforce. A key aspect of talent management includes creating an effective total rewards
strategy to recruit and retain employees with a
combination of compensation, fringe benefits, financial
rewards, personal growth opportunities, and, increasingly, workplace flexibility options.
In developing a total rewards strategy, HR seeks to
provide an approach for compensating employees that
is compatible with the organization’s mission, strat3

Should the Court grant certiorari, SHRM will seek consent
to file an amicus curiae brief on the merits.

3
egy, and culture, that is appropriate for the specific
workforce, and that is internally and externally equitable.
The degree of market competition, the level of
product demand, and industry characteristics all
influence compensation and benefits philosophy. An
organization is likely to use various strategies in
approaching pay. For example, for critical jobs and
competencies, the organization may decide to lead the
competition in compensation, while in other areas the
organization may decide simply to match what competitors are paying their employees. A well-designed
compensation system not only helps attract employees
but also plays an important role in motivating and
retaining employees.
SHRM’s expertise in human resources practices
provides it with perspectives on hiring and pay-setting
practices and insights into why employers sometimes
do—and sometimes don’t—consider an applicant or
employee’s prior salary. These kinds of practical business realities are what the Ninth Circuit’s academic
analysis studiously ignores.
SUMMARY OF ARGUMENT
SHRM requests that the Court resolve a longstanding split among Circuit Courts of Appeal on a
critical issue under the EPA: whether prior salary can
ever be a factor other than sex. A narrow Ninth Circuit
majority has widened that split into a wide chasm.
Congress enacted the EPA in 1963, to prohibit sex
discrimination in paying wages. The EPA accomplishes that goal by making an employer liable,
regardless of its intent, if it pays different wages to
employees of opposite sexes for equal work in jobs
requiring equal skill, effort, and responsibility, per-

4
formed under similar working conditions, unless the
employer can show that its payments reflect a (1) a
seniority system, (2) a merit system, (3) a system
measuring quantity or quality of production, or (4)
“any other factor other than sex.” 29 U.S.C. § 206(d)(1).
For the more than 50 years after the EPA’s enactment, courts have held that employers could, in
appropriate circumstances, treat prior salary as a
factor other than sex, while forbidding employers to
pay women less simply because market forces would
permit the employers to get away with it. No circuit
court during all these years held that the EPA categorically bars employers from ever relying on prior
salary. Yet here the Ninth Circuit reached out to overturn its precedent in favor of an extreme rule that
offends common sense and business realities, while
undermining employers’ reliance on 50 years of EPA
jurisprudence. Hence SHRM’s interest in this case.
ARGUMENT
I. The Ninth Circuit’s Radical Rule Deepens
A Circuit Split and Upsets Employer Reliance on 50 Years of EPA Jurisprudence
Petitioner ably describes four distinct ways in which
the Circuit Courts of Appeal have interpreted a “factor
other than sex” in cases where EPA defendants have
cited prior salary to explain pay differentials, and
opines on how each of the four interpretations could
affect the outcome in this case. Petitioner’s brief at 9–
16. SHRM, not being a party, cares more about the
rightness of the rule than the correctness of the result.
Its purpose here, therefore, is simply to illustrate the
wide range of appellate views on how to interpret the
same statutory phrase (“factor other than sex”) and to
highlight how the existing diversity among those

5
views undermines employers that want consistent,
correct guidance on how to comply with the law.
While deferring to the precision of Petitioner’s
descriptions, SHRM provides a simplified description
of the wide range of opinion on whether prior salary is
a factor other than sex under the EPA:
1. By one view, prior salary is always a factor other
than sex under the EPA. See, e.g., Taylor v. White, 321
F.3d 710, 714–15, 717 (8th Cir. 2003) (employer could
pay plaintiff’s male counterparts more because their
salaries stemmed from a “non-statutory salary retention policy” that paid them more in light of prior
earnings; “the EPA does not suggest any limitations to
the broad catchall ‘factor other than sex’ affirmative
defense”).
2. By another view, while prior salary alone is not a
factor other than sex (as it might reflect the endemic
pay bias that the EPA aims to correct), prior salary can
be such a factor, depending on the circumstances. See,
e.g., Aldrich v. Randolph Cent. Sch. Dist., 963 F.2d
520, 525, 527 (2d Cir. 1992) (employers may rely on
prior pay if it “is rooted in legitimate business-related
differences in work responsibilities and qualifications
for the particular positions at issue” and “has some
grounding in legitimate business considerations”);
Beck-Wilson v. Principi, 441 F.3d 353, 365, 366 (6th
Cir. 2006) (“any other factor” exception includes factors “adopted for a legitimate business reason”; employers can rely on a sex-neutral system such as prior pay
if there are “business-related” reasons to do so).
The EEOC, the federal agency empowered to enforce
the EPA as of 1978, has, since at least 1997, agreed
that prior salary can be a factor other than sex. See,
e.g., EEOC Notice Number 915.002 (Oct. 29, 1997),

6
Enforcement Guidance on Sex Discrimination in the
Compensation of Sports Coaches in Educational
Institutions (advising further inquiries in cases where
a defendant employer has asserted prior salary as a
factor other than sex).
The Ninth Circuit itself once recognized the wisdom
of a “pragmatic standard, which protects against
abuse yet accommodates employer discretion,” by
requiring that an employer use prior salary as a
“factor reasonably in light of the employer’s stated
purpose as well as its other practices.” Kouba v.
Allstate Ins. Co., 691 F.2d 873, 876–77 (9th Cir. 1982).
This “pragmatic standard” necessarily recognized that
the EPA “does not impose a strict prohibition against
the use of prior salary.” Id. at 878. Yet a “pragmatic
standard” was what the Ninth Circuit abruptly abandoned here in favor of a radical view that prior salary
can never be a “factor other than sex.”
3. The Ninth Circuit thus has created a category all
its own. The en banc panel, through a 6-5 vote, created
a categorical rule that prior salary can never be a
factor other than sex. Five concurring judges agreed
with the majority that prior salary alone can never be
a factor other than sex. But the concurring judges were
equally emphatic that the majority erred in insisting
that prior salary can never be a factor other than sex.
Meanwhile, employers in the Ninth Circuit have, for
decades, utilized prior salary in setting pay rates. An
initial pay rate continues to influence pay levels set
thereafter, as many employers adjust pay as a percentage of current pay. Accordingly, employers now face
unexpected liability for current pay rates of employees
that were once based, in part, on the then-lawful factor
of prior salary. If the Ninth Circuit’s new guidance is
correct, then hundreds of thousands of employers

7
arguably must somehow root out remnants of reliance
on prior salary that lurk within their pay systems.
Employers that materially relied on prior salary,
consistent with Kouba and EEOC guidance, thus now
find themselves in legal jeopardy because the Ninth
Circuit reached out to reverse its own precedent in
order to adopt a radical interpretation of a 50-year-old
statute.
This deep Circuit split requires resolution by this
Court. And this case presents an opportunity to provide guidance for employers on an important issue—
guidance needed now more than ever because of the
radical divergence now existing among several distinct
interpretations of the same statutory phrase: “factor
other than sex.”
II. The Court Should Grant Certiorari to
Create Uniformity on an Important
National Issue
The current split in authority undermines the
obvious desirability of a nationwide interpretation of a
federal law, the EPA. The current fractured state of
the law—rendered further asunder by the Ninth
Circuit’s activism—frustrates that purpose. The Court
should take this opportunity to resolve the circuit split
and bring order to the current chaotic state of law. It
makes precious little sense for a national employer
that appropriately relies on prior salary in most of
America to find itself stymied in that respect when it
sets pay in states covered by the Ninth Circuit.4
4

The Ninth Circuit majority insists that its decision does not
“prohibit[] any consideration of prior pay.” App. 28a. The majority
thus offers the assurance that employers can rely on prior pay so
long as they disclaim any such reliance in defending an EPA case.
This refusal to recognize the practical effect of a judicial decision

8
National employers already are unduly burdened by a
patchwork of state laws impeding various business
freedoms, but that is no justification for imposing
federal patchworks, when that could not have been the
congressional intent.
As the two Ninth Circuit concurring opinions
observe, and as SHRM’s own experience confirms,
employers making business decisions have many valid
reasons to consider prior salary. Any proper interpretation of “factor other than sex” would adopt a nuanced
view. That view—while not endorsing any blind reliance on wage patterns that reflect societal biases
undervaluing the worth of women workers because of
perceived societal roles—would recognize that employers may fairly consider prior salary in appropriate
circumstances.
By contrast, the Ninth Circuit’s dogmatic view that
prior salary can never be considered amounts to a
cavalier command that businesses must disregard the
economic realities that confront them. No court should
so interpret a statute unless the statutory language
compels that result. The EPA’s language is not so
compelling, as a half-century of American jurisprudence has confirmed.
The Ninth Circuit’s dogmatic rule sacrifices reason
on an altar of (faulty) academic logic. The Ninth
Circuit concludes that because the EPA was enacted
to combat endemic pay discrimination against women,
prior salary therefore can never be a factor other than
sex, because prior salary presumably incorporates the

is emblematic of the majority’s overall academic approach, which
blithely disregards the business realities that prompted Congress
to enact the “factor other than sex” exception in the first place.

9
very bias that the EPA was designed to correct.5 This
simplistic logic, with its unproven premise, dismisses
the wisdom of a half-century of practical EPA
interpretations. There is no good reason to suppose
that the Ninth Circuit discovered, 50+ years after the
fact, what everyone else somehow missed: the one true
divination of what Congress really meant in 1963
when it carved out a space for business freedom by
enacting the “factor other than sex” defense.
A. Employers Routinely Use Prior Salary
Data for Legitimate Business Purposes
Employers making business decisions consider the
prior salaries of applicants and employees in various
scenarios that do not involve any pay discrimination
because of sex. Examples of various legitimate business purposes that those considerations have achieved
are set forth below.
Assessing skills and ability. Knowledge of an
applicant’s salary history can inform hiring decisions.
Salary, when considered with other data, provides a
holistic measure of a candidate’s relative skill, responsibility, and job performance.
Assessing interest and motivation. Prior salary
information can streamline the hiring process. Many
employers ask about prior salary because they don’t
want to waste the time of a candidate who’s seeking a
higher salary than the employer would pay. Yuki
Noguchi, Nat. Pub. Radio, Proposals Aim to Combat

5

Of course, any such presumption of continuing universal sex
discrimination is dubious: “Wage patterns in some lines of work
could be discriminatory, but this is something to be proved rather
than assumed.” Wernsing v. Dep’t of Human Servs., 427 F.3d 466,
470 (7th Cir. 2005).

10
Discrimination Based on Salary History (May 30,
2017), https://tinyurl.com/ya67hrua. Asking about
current salary thus can save time and resources by
enabling employers to determine whether applicants
could work within salary guidelines.
Framing salary offers. Employers may need to meet
offers or raises an applicant has received from
competing employers. See, e.g., Amy Gallo, Harv. Bus.
Rev. Online, Setting the Record Straight: Using an
Outside Offer to Get a Raise (July 5, 2016) (outside
offers “a legitimate way to get . . . higher compensation”), https://tinyurl.com/jhm2eub; see also Jen
Hubley Luckwaldt, PayScale, When Should You Use
an Outside Offer to Negotiate Salary? (July 11, 2016)
(offering applicants strategic advice), https://tinyurl.
com/ybsf6n3l; Horner v. Mary Inst., 613 F.2d 706, 714
(8th Cir. 1980) (EPA defendant could hire a male
teacher at $9,000 while hiring a female teacher at
$7,500 because the male commanded $9,000 elsewhere; “an employer may consider the market place
value of the skills of a particular individual when
determining his or her salary”).
A recent SHRM survey of 616 employer-member
respondents confirms these points.6 Respondents
report using prior salary for one or more legitimate
business purposes, such as framing an attractive offer,
screening out those they cannot afford, or increasing
an offer to attract a candidate away from a current job:

6

These results are from a poll taken April 16–20, 2020, with
616 SHRM member respondents. “Data Snapshot: How Employers
Use Prior Pay in Decision-Making,” (April 20, 2020), https://www.
shrm.org/ResourcesAndTools/legal-and-compliance/employmentlaw/Pages/ Data-Snapshot-How-Employers-Use-Prio-Pay-in-Dec
ision-Making.aspx.

11
Landing candidates:
• 65.3% of respondents report screening out
candidates whose salary demands are too
high.
• 64.6% of respondents report framing an
offer that would be attractive to the applicant.
• 51.9% of respondents report inducing a
candidate to leave a current job.
• 37.8% of respondents report gauging candidate’s likely interest in an open position.
• 32.6% of respondents report obtaining
important negotiation information.
• 24.2% of respondents report negotiating a
higher rate of pay with an applicant who
has opportunities for higher-paid jobs
with other employers.
Evaluating candidates:
• 14.1% of respondents report ensuring the
candidate has the desired experience,
ability, etc.
• 13.6% of respondents report learning
about a candidate’s prior performance,
education, skill or experience.
Improving internal pay structures:
• 58.4% of respondents report gathering
market data to compare against employer’s
own pay structure.
• 25.3% of respondents report inducing an
existing employee to reject a competitive
offer from another employer.

12
B. Stifling Use of Prior Salary Would Hurt
Women as Well as Men
Some specific examples illustrate how employers
can consider prior salary without blindly accepting
any socially biased market forces creating endemic
pay discrimination.
1. A software development company is filling two
positions in a new role involving highly specialized
software engineering. No salary surveys are on point.
The employer offers both successful candidates—one
man and one woman—a starting rate of $150,000, in
line with what the company pays its incumbent software engineers. The man accepts the offer but the
woman, having a better understanding of the highly
specialized arcane knowledge that her specialized role
requires, demands $185,000. The company meets her
demand because no other candidate is available and
because the need for her specialized talent is urgent.
2. An engineering firm is recruiting two engineers,
with an onboarding date of July 1. The recruiting
process identifies the two most qualified applicants:
one man and one woman. Each is offered a starting
salary of $87,000. The man accepts the offer. The
woman thinks the $87,000 offer is fair, but asks for a
sign-on bonus, explaining that the $10,000 annual
retention bonus she expects at her current employer
will not come due until October 1. The man, too, had a
$10,000 annual retention bonus at his company, but
that bonus was already paid, on April 1. Animated by
a sense of equity and fairness, and wanting to hire the
woman quickly, the firm pays her (but not the man) a
$10,000 sign-on bonus.
3. A supermarket store must quickly replace two
junior managers just as a global pandemic erupts.

13
Store management knows that competing stores have
a pandemic premium pay program for store managers,
but does not know the amounts being paid. Store
management identifies two candidates of equal skill
and experience—one a man, one a woman, and both
working at competing stores. In hiring these individuals, the store pays them the store’s base annual pay for
a junior manager plus whatever pandemic premium
pay the manager was earning elsewhere. The male
candidate is thus hired at $135,000 and the woman at
$140,000.
4. A professional services company, in recruiting for
a vice president to lead a region, identifies a highly
qualified woman working as an executive at another
firm. The company’s standard executive contract
includes base pay, bonus, and stock options. During
contract negotiations, the female executive outlines
the three-year vesting schedule for her stock options
at her current firm, which she expects to yield her a
value of $200,000. The employer confirms that analysis and raises its salary offer to make the woman
whole (for the predicted value of her loss in stock
options) over the next three years. Meanwhile, the
salary for an incumbent male vice president leading a
different region, while performing a job requiring
equal skill, experience, and responsibility, would be
$200,000 less over the three years in question.
5. A manufacturer is recruiting two sales managers,
one a man and one a woman. Each is offered a starting
salary of $115,000. The man accepts the offer. The
woman points out that her salary at her current
employer is $125,000, and though she wants to accept
the offer, because she is the sole financial support for
her family of four, she cannot tolerate a $10,000 pay

14
cut. The company responds with an offer of $120,000,
which she accepts.
6. A real estate brokerage is recruiting new
residential sales agents. In deciding how much to offer
new hires, the brokerage relies on a mix of factors,
including years of experience, written recommendations, sales revenue, and current salary. It turns out
that female agents in the relevant market generally
earn higher salaries and among the brokerage’s new
hires it turns out that the women are paid more
because they had been earning higher salaries at their
former employers.
7. A smaller law firm merges into a bigger law firm.
The bigger firm has a lock-step salary system for
associates. The smaller firm had been paying associates smaller base salaries, while awarding widely
varying performance bonuses, with the larger bonuses
generally going to female associates because of their
generally higher performance. Upon the merger, the
larger firm integrates the smaller firm’s associates
into its lock-step payment system on the basis of their
total pay earned during the prior year, with the result
that women integrated into the bigger firm now have
a higher salary than their male counterparts who have
been integrated into the bigger firm.
8. A private high school, filling two teaching positions, considers two prime candidates—a man making
$60,000 at his current school and a woman making
$59,000 at her current school. During the interview
process, the woman reveals she is considering an offer
from a competing private school at $66,000. The man
has no other prospects. The school hires both candidates, the man at $63,000 and the woman at $66,000
(matching her competing offer).

15
9. A photojournalist is enticed to leave her position
at a major metropolitan daily in California when she
receives an unsolicited offer to join another daily in
Oregon that pays $10,000 more in annual salary. She
informs her employer of her dilemma; her family could
really use the additional $10,000. Concerned about
losing this prize-winning journalist, the California
daily matches her competitive offer, and she decides to
stay put. In doing so, she now makes $10,000 annually
more than any male photojournalist at the California
newspaper.
These examples show various ways in which
employers making real-world pay-setting decisions
sometimes utilize an employee’s or applicant’s prior
(or current) salary (or competitive future salary offer),
as one factor among others, in setting pay. One might
object that the examples show how women can benefit
from consideration of prior salary. But that is the
point. Considering prior salary (and in the example of
a competitive offer, a market salary proposal) can
benefit women as well as men.7 And employers could
not decide to consider prior salary only when the
practice would benefit women, because any such practice would be unlawful. The Ninth Circuit’s categorical
ban on considering prior salary as a factor other than
sex under the EPA thus would have the perverse effect

7

Indeed, limits on inquiries into applicants’ current salaries
can hurt rather than help women. A 2017 survey found that
women refusing to disclose salary history were offered 1.8% less
than women who did disclose, while men who refused to disclose
salary history received offers 1.2% higher than men who did disclose. Mello, Jeffrey A. (2019) “Why the Equal Pay Act and Laws
Which Prohibit Salary Inquiries of Job Applicants Can Not
Adequately Address Gender-Based Pay Inequity,” SAGE Pubs.,
https://journals.sagepub.com/doi/pdf/10.1177/2158244019.

16
of hurting women as well as men in their pay aspirations.
Considering prior salary in setting pay, as these
examples demonstrate, is not a pretext for unlawful
discrimination. As explained above, in numerous circumstances, that consideration reflects sound business decision-making to attract and to retain
employees. The EPA allows employers, exercising
their discretion, to decide when the use of prior salary
is appropriate, and the EPA allows courts, exercising
their judgment, to determine where employers have
crossed the line from permissible use to impermissible
use.
It is true, of course, that the EPA has not eliminated
the entire wage gap perceived in 1963. And it may
also be, of course, that amendments to the EPA
could reduce the perceived wage gap further. But any
amendment would be wholly within the province of
Congress, not a court that 50+ years after the fact
decides to rewrite the statute.

17
CONCLUSION
Accordingly, SHRM requests this Court to grant the
petition for certiorari and create national uniformity
to EPA law on this important issue.
Respectfully submitted,
CAMILLE A. OLSON
Counsel of Record
RICHARD B. LAPP
DAVID D. KADUE
SEYFARTH SHAW LLP
2029 Century Park East
Los Angeles, California 90067
(310) 277-7200
colson@seyfarth.com
Counsel for Amicus Curiae
Society for Human Resource
Management

